<html>
<title> - [H.A.S.C. No. 115-19] The Effect of Sequestration and Continuing Resolutions on Army Modernization and Readiness</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


.                                 
                         [H.A.S.C. No. 115-19]

                    THE EFFECT OF SEQUESTRATION AND
       CONTINUING RESOLUTIONS ON ARMY MODERNIZATION AND READINESS

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 16, 2017

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-051 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c6a1b6a986a5b3b5b2aea3aab6e8a5a9abe8">[email&#160;protected]</a>   


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        NIKI TSONGAS, Massachusetts
PAUL COOK, California, Vice Chair    JAMES R. LANGEVIN, Rhode Island
SAM GRAVES, Missouri                 JIM COOPER, Tennessee
MARTHA McSALLY, Arizona              MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           RUBEN GALLEGO, Arizona
TRENT KELLY, Mississippi             JACKY ROSEN, Nevada
MATT GAETZ, Florida                  SALUD O. CARBAJAL, California
DON BACON, Nebraska                  ANTHONY G. BROWN, Maryland
JIM BANKS, Indiana                   TOM O'HALLERAN, Arizona
WALTER B. JONES, North Carolina      THOMAS R. SUOZZI, New York
ROB BISHOP, Utah                     (Vacancy)
ROBERT J. WITTMAN, Virginia
MO BROOKS, Alabama
               Jesse Tolleson, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Neve Schadler, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Tsongas, Hon. Niki, a Representative from Massachusetts, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     2
Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1

                               WITNESSES

Anderson, LTG Joseph, USA, Deputy Chief of Staff, Army G-3/5/7...     5
Murray, LTG John M., USA, Deputy Chief of Staff, Army G-8........     4

                                APPENDIX

Prepared Statements:

    Murray, LTG John M., joint with LTG Joseph Anderson..........    36
    Turner, Hon. Michael R.......................................    33

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Bacon....................................................    57
    Mr. Langevin.................................................    56
    Ms. Tsongas..................................................    56
    Mr. Turner...................................................    53
    
    
.    
    THE EFFECT OF SEQUESTRATION AND CONTINUING RESOLUTIONS ON ARMY 
                      MODERNIZATION AND READINESS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                          Washington, DC, Thursday, March 16, 2017.
    The subcommittee met, pursuant to call, at 3:32 p.m., in 
room 2118, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE 
  FROM OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Turner. This hearing will now come to order. The 
subcommittee meets today to continue the ongoing process of 
informing our members and the public about the current 
readiness crisis that all of our military services find 
themselves in. This hearing will address how sequestration and 
continuing resolutions [CRs] have impacted the Army's ability 
to modernize the current and future force and to be ready and 
capable against current and emerging threats.
    We held a similar hearing last week with the Marine Corps. 
I would like to welcome our witnesses: Lieutenant General John 
M. Murray, Army Deputy Chief of Staff, G-8; Lieutenant General 
Joseph Anderson, Army Deputy Chief of Staff, G-3. And we want 
to thank you guys for your dedicated service to our Nation.
    We look forward to hearing about your professional 
assessment of the current status of Army modernization.
    As you know, readiness includes many things, such as end 
strength, training, and modernization. In many hearings, the 
full committee and this subcommittee have heard testimony 
regarding the serious challenges faced by our military services 
with respect to overall military readiness. We have repeatedly 
heard how the military services, as a result of budgetary 
constraints, have had to defer modernization in order to 
maintain near-term readiness. We have heard about the many 
complex and evolving threats that this country now faces and 
how we continue to lose our technological advantage and combat 
overmatch against strategic adversaries.
    Just last month, General Allyn, the Vice Chief of Staff of 
the Army, reiterated many of these concerns and noted that, as 
currently postured, the Army is outranged, outgunned, and 
outdated in some respects. Right now, the Army is near the 
bottom of a historically severe budget drawdown in terms of 
modernization. For example, Army modernization funding declined 
74 percent from 2008 through 2015 as a result of the drawdown 
from two wars and the imposition of the Budget Control [Act] 
caps. And as a result, tradeoffs and significant funding 
reductions were made to critical modernization programs.
    So the purpose of this hearing today is to conduct a more 
comprehensive review of the state of Army modernization and 
understand what the Army will require to rebuild itself and win 
decisively. We need to better understand how and why the Army 
is outranged, outgunned, and outdated in some circumstances so 
we can begin the process of fixing this problem. As such, the 
witnesses have been asked to address and identify, one, the 
near- and long-term impacts that continuing resolutions and 
sequestrations are having on the Army's ability to modernize 
and ready its forces; two, the processes the Army is utilizing 
to prioritize modernization requirements to address immediate 
and near-term capability gaps in a budget-constrained 
environment; three, whether the Army should be focusing its 
modernization and strategies across the Future Years Defense 
Programs to address the anticipated security environment; and, 
four, the potential resources that would be required to support 
these strategies.
    To be clear about resources, as I said last week during a 
similar hearing with the Marine Corps, the top line is the 
issue, and we must repeal sequestration. I support the 
President's commitment to rebuilding our military. For example, 
just last year, the military services identified almost $22 
billion in unfunded requirements. The Army's FY [fiscal year] 
2017 supplemental request appears to require an additional $4.2 
billion just for modernization requirements alone to begin 
restoring needed capacity and capability.
    The administration has now submitted a budget request of 
$603 billion for base defense in fiscal year 2018. This is only 
a 3 percent increase above President Obama's projected budget 
request for fiscal year 2018 from last year. I have concerns 
that a base budget request of only $603 billion does not even 
start the process of rebuilding our military. While we cannot 
repair all the damage done from sequestration in a single year, 
we can and should do more than this level of funding would 
provide.
    I look forward to working with the administration in order 
to increase the fiscal year 2018 budget. And we would like to 
get as close as possible to the $640 billion number that was 
referenced in Chairman Thornberry's views and estimates letter 
to the Budget Committee, a number that is also supported by 
Chairman McCain.
    Before we begin, I would like to turn to my friend and good 
colleague from Massachusetts, Niki Tsongas, for any comments 
that she might have.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 33.]

     STATEMENT OF HON. NIKI TSONGAS, A REPRESENTATIVE FROM 
MASSACHUSETTS, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Ms. Tsongas. Thank you, Mr. Chairman.
    And welcome, Lieutenant General Murray and Lieutenant 
General Anderson. It is good to have you before us here today. 
I look forward to hearing from you both about the Army's 
modernization priorities, particularly in light of the release 
of the President's fiscal year 2018 budget outlined yesterday, 
and the fiscal year 2017 amended budget earlier today.
    Like many of my colleagues, I have long been concerned by 
the Budget Control Act's [BCA's] spending caps on defense and 
the constraints it has placed on our ability to make thoughtful 
investments in areas needed to keep our country and our service 
members safe. But I also believe that domestic spending caps in 
the BCA are equally devastating to our economic health and our 
national competitiveness, which are critical components to a 
strong national defense and security.
    The fiscal year 2017 budget amendment shows an overall 
increase for the DOD [Department of Defense] of $30 billion, 
along with $3 billion for the Department of Homeland Security. 
However, it also shows an unspecified $18 billion reduction to 
nondefense accounts without providing any details, which I find 
quite concerning.
    With regard to fiscal year 2018, though we have not yet 
seen all of the details, many of the nondefense top line agency 
numbers are deeply troubling, such as the proposed 30 percent 
cut to the State Department, a move over 120 retired generals 
and admirals spoke out against in a recent letter to Congress. 
Likewise, the proposed fiscal year 2018 budget would make 
devastating cuts to the EPA [Environmental Protection Agency] 
and the Departments of Labor, Education, and Commerce, among 
many others. Simply put, this budget would do great damage to 
our Nation and our national defense. And I look forward to 
working with my colleagues to strongly oppose its 
implementation.
    But with that in mind, I look forward to hearing from you 
both on today's topic. Since the creation of the All-Volunteer 
Force in the 1970s, the Army and the Nation have wrestled with 
finding the right balance between prioritizing funding for 
military personnel, including training, pay, benefits, housing, 
and associated costs, and procuring the best and most capable 
equipment. And this tension is more pronounced during times of 
flat or declining budgets.
    As the cost of recruiting, training, sustaining, and 
retaining the most capable troops in the world has gone up, in 
order to best prepare and protect them for the challenges they 
face, finding the appropriate balance has grown even more 
difficult. While all services would prefer to have both, lots 
of troops and lots of modernization funds for better equipment, 
there have been only a few times in the last 40 years where 
fully funding both accounts has been possible given the many 
pressing needs across the DOD budget. Various Army Chiefs of 
Staff have confronted this issue, but in most cases, the Army 
has chosen to maintain the size of the force while delaying or 
even canceling important modernization efforts. The Army is 
again facing this choice.
    The full committee received testimony several weeks ago 
from the Army Vice Chief, where we heard that the Army has 
serious capability gaps in some areas, such as long-range 
fires, air defense, vehicle protection, electronic warfare, and 
mobility for light units. At the same time, this committee has 
been told the Army is too small in size to carry out its 
assigned missions without continuing to place a heavy burden on 
current service members and their families.
    Over the years, this committee has tried to help on both 
fronts. In many years, Army equipment, research, and 
procurement accounts have been increased, including this 
subcommittee's efforts to fund M1 Abrams tank upgrades, 
upgrades needed to maintain our superiority on the battlefield. 
Just this past year, the committee stopped the Army's personnel 
drawdown at 476,000 in response to increasing demand for 
soldiers around the world by our combatant commanders. And the 
committee has also shown increasing--also shown consistent 
bipartisan support for increasing funding for force protection 
initiatives, from body armor to vehicle armor, to make sure we 
are providing the best lifesaving equipment for the men and 
women we send into harm's way.
    For today's hearing, I would like hear from you, our 
distinguished witnesses, about how the Army is thinking about 
this balance between people and modernization. If the Army is 
asked to grow significantly in size in the forthcoming budget, 
how will it plan to address the equipment gaps we have been 
told about? What options are there for accelerating current 
equipment programs? What is the tipping point where the Army is 
simply too big to properly equip, given the higher cost of 
today's more complex ground combat equipment?
    I look forward to addressing these and other issues in 
today's hearing. I look forward to your testimony.
    And I yield back.
    Mr. Turner. General Murray.

 STATEMENT OF LTG JOHN M. MURRAY, USA, DEPUTY CHIEF OF STAFF, 
                            ARMY G-8

    General Murray. Chairman Turner, Ranking Member Tsongas, 
distinguished members of the Subcommittee on Tactical Air and 
Land Forces, on behalf of our Acting Secretary, the Honorable 
Robert Speer, and our Chief of Staff, General Mark Milley, we 
look forward to discussing with you the effects of 
sequestration and continuing resolutions on the Army's ability 
to both regain warfighting readiness and to modernize the 
force.
    As you have heard before today, the Army has roughly half 
the funding for modernization and equipping the force it had 
just 8 years ago. Sequestration, and year after year continuing 
resolutions, has forced the Army to make some hard choices, 
choices which have led us to focus our resources on generating 
and maintaining the best trained and equipped forces that a 
fiscally constrained environment would allow.
    We find ourselves in a situation where our most capable 
enemies are closing quickly. We are losing overmatch in every 
domain: land, air, maritime, space, and cyberspace. And as 
mentioned, in the words of General Allyn during his most recent 
testimony, we find ourselves outgunned, outranged, and outdated 
in some very critical warfighting capabilities.
    Our current modernization strategy is to upgrade today's 
equipment, focusing our limited modernization budget on the 
equipment that will have the greatest impact against near-peer 
threats and can be in the hands of our soldiers in the near 
future.
    For the last 10 years, we have focused on the immediate, 
providing the equipment necessary for our soldiers to fight in 
Iraq and Afghanistan, along with incremental upgrades to our 
existing combat platforms. That strategy, driven primarily by 
constrained modernization resources, forced us to defer the 
development of new combat capabilities. I believe that we have 
reached a point in time where we can no longer afford to do 
just one or the other: improve existing systems or develop new 
ones. We must find a way to do both.
    We face critical capability and capacity gaps in areas like 
air missile defense; long-range precision fires; critical 
munitions production; the mobility, protection, and lethality 
of our brigade combat teams [BCTs]; electronic warfare; assured 
position, navigation, and timing; ground and aviation active 
protection; and cyberspace, to name just a few. We must begin 
to fill these gaps if we are to credibly deter and, if 
necessary, defeat a near-peer adversary.
    Near-term security challenges will be met with the 
equipment we have today. And it must be improved to ensure that 
we provide our current soldiers with the best we have to offer. 
Tomorrow's security challenges will be met with the equipment 
we develop and procure over the next several years. And we owe 
our future soldiers the equipment they will need to fight and 
win in a very complex battlefield.
    We urge Congress to provide fiscal stability, funding that 
is sustained, long term, and predictable, so that we can 
maintain our current warfighting readiness while simultaneously 
building a more modern and capable force for the future.
    I would like to thank you and the entire committee for your 
unwavering support of the men and women of the United States 
Army, our Army civilians, and our families. And I look forward 
to your questions. Thank you.
    [The joint prepared statement of General Murray and General 
Anderson can be found in the Appendix on page 36.]
    Mr. Turner. General Anderson.

 STATEMENT OF LTG JOSEPH ANDERSON, USA, DEPUTY CHIEF OF STAFF, 
                          ARMY G-3/5/7

    General Anderson. Chairman Turner, Ranking Member Tsongas, 
distinguished members of this subcommittee, thank you for the 
opportunity to testify on the state of your U.S. Army.
    I appreciate your support and demonstrated commitment to 
our Army and look forward to discussing the effects of 
sequestration and the continuing resolution on our Army with 
you today.
    My experience has allowed me to witness significant, 
lasting detrimental effects to Army readiness and modernization 
caused by sequestration and continuing resolutions. The abrupt 
implementation of FY 2013 sequestration significantly impacted 
every aspect of the Army; from training to readiness to delayed 
modernization, sequestration compelled the Army to take drastic 
measures. Continuing resolutions compound resourcing solutions 
and greatly affect our ability to generate readiness and 
execute a modernization strategy.
    Our competitors have studied our doctrine, made revisions 
to theirs, and they are rapidly modernizing their militaries. 
We now face the prospect of fighting in complex, anti-access/
area-denied environments against threats equipped to overmatch 
several of our current capabilities. This strategic environment 
requires a trained and ready Army that has both the capacity 
and capability to meet current and the future challenges in 
order to prevail across the full range of military activities.
    Today, the Army remains globally engaged with over 182,000 
trained and ready soldiers committed to meeting combatant 
command [COCOM] deterrence and counterterrorism [CT] 
requirements. The operational tempo required to meet current 
and emergent demand consumes readiness as fast as we can supply 
it. This places the Army's ability to meet wartime contingency 
requirements at high risk.
    Resourcing NDAA [National Defense Authorization Act] 2017 
end-strength authorizations is absolutely necessary to bridge 
gaps within our current formations and is the first step 
required to meet our readiness objectives. The Army will 
mitigate some manning shortfalls by optimizing its available 
resources to enhance total force readiness by filling the holes 
in our current formations and increasing our number of armored 
brigade combat teams. Additional end-strength increases will 
build greater quantities of critical unit types and develop 
crucial capabilities in long-range fires and air and missile 
defense formations that are required to adequately prepare for 
major contingencies.
    Readiness remains the number one priority, as I am sure you 
heard from our chief this morning. We must stand ready at a 
moment's notice to defend the U.S. and its interests. With your 
assistance, the Army will continue to resource the best 
trained, best equipped, and best led fighting force in the 
world.
    We thank you for your steadfast support of our outstanding 
men and women in uniform. I look forward to taking your 
questions. Thanks.
    Mr. Turner. Thank you, General.
    General Murray, the U.S. Army has enjoyed overmatch against 
near-peers and strategic competitors for the last 70 years, but 
the world has changed. And our adversaries have closed this gap 
and, in some cases, as you mentioned in your comments and I 
mentioned in mine, have overmatch in conventional capability. 
In your statement, you said, in the past few years, you have 
executed a very constrained modernization strategy and that it 
is now the time for the Army to start a dual-path strategy: 
improve current systems and begin the development of next-
generation combat systems. Can you describe this approach to 
the committee in more detail? And do you have the resources to 
execute that strategy? If not, what resources will it take?
    And then could you also briefly discuss the impacts on 
modernization of the Budget Control Act, sequestration caps, 
and also the effects of continuing resolutions?
    General Murray.
    General Murray. Thank you, sir, for that question.
    I do think that is a very astute question, and it is really 
the central theme of what the Army, I believe, needs to begin 
to address in a very serious manner.
    As you mentioned, sir, so, for the past few years, we 
have--the modernization strategy has been very limited in new 
development, and it has been incrementally upgrade equipment as 
best we could. And based upon resourcing, those incremental 
upgrades take extended periods of times. So procurement 
timelines are exceptionally long. So, for instance, we will 
finish upgrading the Bradley and the tank with the most recent 
upgrade in the mid-thirties, early to mid-thirties, with very 
little investment in next-generation capability.
    Based upon resources and based upon the number of programs 
we have, any investment towards next-generation capability 
comes when we buy out an upgrade, and when our procurement 
timelines are extended, you never get to the next-generation 
capability because you are always upgrading the equipment. And 
it really becomes a time, risk, and resourcing equation you 
have to balance. So, if you are convinced that you have the 
potential of going into conflict in the near term, you have to 
continue to upgrade what you have because you can't afford to 
send soldiers in with less than the best capability we can 
provide.
    So it is a balance, and you heard General Allyn say this 
last year and General Milley say this last year, is we really 
mortgaged our future to take care of the near term. And I say 
we need to start to do both, and we are starting to do both. 
There was just an article the other day in the paper about the 
next-generation combat vehicles. So we are starting some early 
prototyping of next-generation combat vehicle.
    And to answer your last question kind of at the beginning 
here, the answer is, under the current resources, we have--and 
I am talking under CR and sequestration--the answer to your 
question would be no; we don't have the resources to do both. 
And if we had the resources--and we are going to have to find 
ways to carve out the resources to do both, and we would do 
that by not executing some lower priority programs. And I will 
talk to you a little bit later hopefully about the SPAR 
[Strategic Portfolio Analysis Review] process where we sat the 
chief down and prioritized what our most critical capabilities 
are and where we would take risk. And some of those areas where 
we would have to take risk are some of high operational value. 
Our commanders on the ground are saying they are of high 
operational value, that we can't afford to take risk there, but 
we will have to if we want to get after this strategy.
    And then the trades you asked about in terms of the BCA, so 
if the BCA comes back in 2018, as you know, we are on a path to 
upgrade the Abrams and the Bradley, we would have to stop that 
upgrade program. And right now we are only doing one brigade 
every 3 years with current resources. We have proposals, and we 
are going to--with the 2017 money that you saw today, I believe 
it was, we will get a brigade a year in 2018 and 2019, but then 
we go back to one brigade every 3 years. And so it will be 2025 
before we finish those upgrades and then have the money to 
invest in next-generation combat capability. Stryker without 
the upgrades would stop with the one SBCT [Stryker brigade 
combat team] we are doing now. We would have to stop the APS 
[active protection systems] development, the nondevelopmental 
APS that we are doing right now with the--probably with the 
characterization we may be able to field one brigade, but that 
would be the extent of the active protective systems. And we 
would have to significantly slow down the active protective 
systems that we are providing for our aircraft, not only in 
theater, but across the aviation fleet.
    Mr. Turner. General Anderson, would you like to comment?
    General Anderson. Yes, sir. Thank you for the question. In 
my world, it is all about balancing the readiness. So Mike said 
modernization has been the big bill payer; the other one has 
been installations, and how do we juggle readiness? But what 
the caps do to us is it decreases the level of training 
proficiency we can achieve at the collective level from brigade 
battalion, where it should be, down to platoons and smaller. It 
reduces potential combat training center [CTC] rotations. It 
decreases the mission command training program for our brigades 
and battalion staffs. It reduces school seats for individual 
soldier skills. And all those, of course, erode readiness, and 
we only focus resources on outfits that are getting ready to go 
on a named operation, be that Freedom's Sentinel, be that 
Inherent Resolve, be that Spartan Shield, or be it the Global 
Response Force. If you are not in one of those categories, you 
are not resourced at the same level as other outfits.
    Mr. Turner. General Anderson, obviously, you balance 
modernization with also force size, and given your role with 
operations and plans, could you please elaborate on why it is 
so critical to join the Army to reduce military risk? Provide 
us some details as what required funding we should look at.
    General Anderson. The NDAA 2017 offer makes us get to that 
476 [thousand] number in the Active Component with the 
priorities. The number one problem we have right now is our 
formations are manned at 95 percent, and typically any unit, 
you have anywhere averaging 10 percent across the Army who are 
nondeployable, and then typically any given month, you have got 
3 to 5 percent of a unit that has got people leaving the Army: 
retirement, permanent change of station, going to school, 
taking leave, what have you. So the formations that are going 
out the door are hovering around 80 percent, and our most 
recent combat training center rotations are around the 77, 78 
percent. So, when we say ``filling the holes,'' that means 
getting units manned back to up around 100 percentile again, 
and units do have to work on closing that 10 percent non-
available gap. But we owe--and when we say we are going to send 
a formation out the door, we owe formations going at the 90 
percentile, 95 percentile, and not the 80 percentile.
    And what this will allow us to do beyond filling the holes 
is to restore some of the combat power that we were about to 
lose. Many different things in Europe, like the 18th MP 
[Military Police] Brigade and things like the 4-25 up in 
Alaska, we are short BCTs to meet the 3-to-1 requirements. 
Again, the classic example is our armored brigade combat teams. 
We have nine in the Active Component; it takes three to sustain 
Korea, three to sustain Europe, three to sustain Kuwait. That 
is it. So one is there. One is going. And one just got home. 
And that is the cycle we are seeing in the Army. So if we can 
build more capability and provide some other things, like 
petroleum outfits, some bridging outfits, some other things for 
Europe, that will buy us back some enablers that will help 
folks like General Hodges in Europe doing all things Operation 
Atlantic Resolve. So that is where it will buy us to restore 
some capability and capacity.
    Mr. Turner. So it sounds likes you are maxed out. What do 
we do?
    General Anderson. We either grow, which is what--so we do 
have this incremental approach. And, again, what sequestration 
and things will do will prevent the growth to go. So 476 is 
1.018 number is still a high significant risk for us to meet 
the defense planning guidance of a defeat-deny scenario while 
doing CT and defending the homeland. So we either got to get 
bigger or we have got to turn the rheostat down on demand. So 
which of those are COCOM-driven? You know, the Army does field 
the majority of all COCOM missions, and the emergent demand 
when you grow, put more things back in Iraq, keep a higher 
number in Afghanistan, do Syria, do Jordan, do Libya, do 
Europe, do Korea, the math doesn't work. So you either have got 
to turn something back or you have to grow the capability and 
the capacity to meet the requirements.
    Mr. Turner. Do you think the COCOMs are driving demand or 
the security environment?
    General Anderson. The security environment.
    Mr. Turner. So we really don't have a choice. It is grow or 
not respond to the security environment.
    General Anderson. In certain cases, we don't. You'd have to 
assess each COCOM's requirements based on what makes Africa 
different than what makes Europe, and how much of this is 
assuring allies versus how much of this is deterring 
adversaries. I think that is the--and, obviously, when you are 
talking about the CT fights, as you are very well aware of what 
we are doing in northern Iraq and Syria, that is a fight. And 
then the question becomes, what impacts and what effects are we 
having in Europe as we are running around armored brigade 
combat teams, combat aviation brigades, doing 85 exercises? 
What effect is that having to the east? Is it truly a 
deterrence, or is it assurance?
    Mr. Turner. Well, according to the RAND study, it is 
neither because it is insufficient for both deterring and 
protecting the Baltics so that certainly provides us with a 
dilemma.
    General Anderson. It does. It does. And that is why when 
you prioritize with things like he or I are doing, if you are 
building equipment, but nobody is actually operating or using 
it, like the SHORAD [short range air defense], the Avengers, 
you know, stuff sitting parked in a motor pool--is what RAND 
saw--is not going to dissuade anybody. So the question is, what 
are the tanks doing? Again, what are the effects you are 
achieving through live fires and other maneuvers, but you have 
really got to--when you assess all of those exercises, which 
ones actually have an impact versus which ones don't? And that 
is what RAND was trying to get a good feel for; which of those 
had accomplished the objectives, and which ones did not?
    Mr. Turner. Excellent.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    As we are discussing the really important issue I think of 
the modernization investments that the Army needs to make, I 
would like to first address the modernization investments that 
we have made in the past decade. So, General Murray, during the 
height of the war in Iraq, from 2003 to 2011, the Army received 
about $500 billion in total modernization funding, including 
the peak year in 2008, where it received $91 billion in that 
year alone. How did the Army use that funding? How much of that 
equipment do we still have? Did it all simply get consumed in 
the war? And do you see a present and future use for it?
    General Murray. Thank you, ma'am. So most of that--and both 
General Anderson and I were there during the years you 
mentioned. So most of that was consumed, in my estimate, by the 
counter-IED [improvised explosive device] fight. So it was 
protection for our soldiers. It was MRAPs [Mine-Resistant 
Ambush Protected vehicles]. It was up-armoring Humvees [High 
Mobility Multipurpose Wheeled Vehicles]. It was additional 
munitions procurement. It was better body armor, helmets. I 
mean, that is where most of that money went, plus the 
recapitalization of the equipment that was rotating in and out 
of theater. My guess would be that is where the lion's share of 
that money went.
    Now are we using some of that equipment? We absolutely are. 
So the Humvees are still in the inventory. The MRAPs we have 
got in an APS set in Italy. A lesser number, but we are 
retaining MRAPs for future contingency use, and we are also 
using MRAPs within the current force. So, within FORSCOM [U.S. 
Army Forces Command], our EOD [explosive ordnance disposal] 
soldiers, route clearance soldiers, are still operating MRAPs, 
just like they did in Iraq in 2008, the year you mentioned.
    Ms. Tsongas. Well, the reason I wanted to bring this issue 
up is to better understand the areas in which the Army didn't 
modernize during the Iraq war and what areas were thought to be 
of lesser priority and became delayed. I think you have 
referenced some of them, but just again to sort of reiterate 
where you see the capability gaps as a result of those 
investments.
    General Murray. Yes, ma'am. And I said this in the opening 
statement, we focused on the equipment we needed for Iraq and 
Afghanistan. And I look back on it, and I don't think I would 
have done anything differently if I was in the position to make 
those decisions. So the areas where we took risk were areas 
that were not important to us in that type of fight. So it was 
air defense systems. It was specifically maneuverable air 
defense systems that could keep up with armored brigade combat 
teams. And there are some assumptions about both of these.
    The other one was probably long-range indirect fires. So 
most of the indirect fires that I used in Iraq and Afghanistan 
were cannon-delivered, and the range we had with cannon-
delivered was fine. And then you always had the collateral 
damage concerns.
    So the other thing that was an assumption is when the 
defense strategy was written back in 2012--and I am sure you 
heard the chief talk about this--there were some fundamental 
assumptions made. One is we weren't facing a resurgent Russia 
at that point in time, and we made the assumption--and it has 
proved to be a bad assumption--a long time ago that we didn't 
really need to worry about air defense and we didn't really 
need to worry about long-range precision fires because we had 
the best systems in the world; it was called the United States 
Air Force. And with the capabilities that we are seeing right 
now that the Russians have developed and the Chinese are 
developing, we have to reinvest some effort. And we really 
haven't upgraded those systems in a long time. It wasn't just 
the war in Iraq and Afghanistan that caused us to assume some 
risk in those areas.
    Ms. Tsongas. I appreciate your forthcomingness, but I do 
know that there were areas where the Army did recapitalize 
quite substantially, and you mentioned, I think, some of them 
in the areas of aircraft, wheeled vehicles, which you have 
talked about, and communications gear. So I think it is really 
just to sort of reiterate the point that the Army is not 
saddled with old and outdated equipment across the board. There 
are some areas in decent shape, wouldn't you say?
    General Murray. Yes, ma'am. And you pointed out a couple of 
other things that are absolutely still in use. So the 
communications systems we are still using. We continue to 
upgrade the tank and Bradley. It is really the equipment we 
used in theater and aircraft specifically; we made some 
significant upgrades with the aircraft. And we are in pretty 
good shape in some areas.
    The problem we are seeing now is you can only do so much to 
old platforms. And you reach a point of, for instance, the M1 
tank. I mean, with the most recent upgrade, it is approaching 
80 tons. And we have just about upgraded that platform as much 
as we can possibly add to or upgrade it. And we are reaching 
the point of limited returns on the upgrades. And we will reach 
that, I think, at some point. We have got to make some more 
upgrades to the aviation because we added a lot of protection 
to our aviation platforms, which has reduced the reach and the 
range and the amount of equipment or personnel an aircraft can 
carry. So it is things like the ITEP [Improved Turbine Engine 
Program] engine are designed to regain what we have lost. But I 
don't think we have any piece of equipment that you can say is 
going to be good for the next 10, 15, 20 years. We are going to 
have to continue to upgrade, or we are going to have to go to a 
new development.
    Ms. Tsongas. Well, I would like to do one more question, 
sort of go in that direction, and that is the Army's 2017 R&D 
[research and development] funding request of about $7.6 
billion continued what I think is a very disturbing trend of a 
decline in what I think is a very important part of the Army's 
budget, in fact I think across the services.
    As compared to the most recent peak of $14.3 billion in 
2008, it is down almost 50 percent. Furthermore, last year's 
projection for future years wasn't much better with R&D funding 
holding steady around $7 billion in a year. In your testimony, 
you mentioned these important capability gaps in several areas, 
such as electronic warfare, long-range fires, and air defense 
systems. And in addition, the Army continues to invest in 
important research in areas such as body armor, materials, and 
other force protection technology. My concern is this: how the 
Army can possibly address those capability gaps in the future 
if R&D spending doesn't go up. You are really, I think, really 
making it very much more difficult, given the rapid change in 
technology. What areas will the Army have to fund itself, and 
how much more will be needed?
    General Murray. Yes, ma'am. The ``how much more'' is a 
difficult question. And the good news, the R&D is a piece of 
it; the S&T [science and technology] piece is the other part of 
that. We have protected S&T investments, and that is a little 
bit further out than the R&D piece, is 6.1, 6.2, 6.3 dollars, 
which you are familiar with. So I said about 50 percent over 
the last 8 years what it was 8 years ago. So, in today's 
dollars, 8 years ago is about $44 [billion]; today, in 2017 
budget, it is about $22 billion in terms of what we would 
consider research or what we would consider, without 
controlling and equipping. R&D is a piece of that. So, 
historically, RDT&E [research, development, test, and 
evaluation] is about a third of that dollar figure, and 
procurement is about two-thirds of that dollar figure. So it is 
balancing that checkbook and getting the right balance between, 
how much do you do to continue to field equipment--and we are 
fielding a significant amount of equipment. It is not like we 
have all the equipment we need right now and we are just 
upgrading stuff. We are also fielding new equipment, and we 
have equipment in the pipeline, JLTV [Joint Light Tactical 
Vehicle], AMPV [Armored Multi-Purpose Vehicle], IFPC [Indirect 
Fire Protection Capability], et cetera, that is under 
development. And how much can you--the balance I talked about, 
it is, how much risk do you take in the near term in order to 
focus more resources on what comes a little bit further out, 
and truly where do you want to accept that risk?
    Ms. Tsongas. How much are you taking advantage of 
technological innovation in the private sector? I know 
Massachusetts is fortunate to have a Defense Innovation Unit 
Experimental, or DIUx. There are others across--there is one in 
California, I think in Texas--or to be in Texas. How are you 
taking advantage of that innovation so you are not reinventing 
the wheel?
    General Murray. DIUx, one specific program that I am 
working pretty much personally, it is called SMET. It is the 
Squad Mission Equipment Transporter. So the concept is that you 
take, you know, equipment that is available in the commercial 
market, and you put it on what we would call a mule. It is just 
a basic vehicle that transports equipment. It takes a 1,000 
pounds; it can transport it. It is almost like a leader/
follower technology, follow soldiers, who are dismounted.
    So you take all the ammunition off their back, you take the 
water off their back, you take their rucksacks off their back. 
And we are in very constant communication with DIUx on that 
one.
    We are also working with the Strategic Capabilities Office 
on some other not necessarily commercially available, but stuff 
that is already in DOD's inventory that we can reuse in 
different ways to try to shave some costs.
    Ms. Tsongas. Thank you. I yield back.
    Mr. Turner. Mr. Cook.
    Mr. Cook. Thank you, Mr. Chairman.
    This is obviously a very difficult situation, we have been 
hearing more and more about--and this falls--the hearing we had 
I guess was last week about the RAND study.
    One of the things I am concerned about is that I am not 
sure whether we are realistic when we have all these 
commitments all throughout the world and we have all these op 
[operational] plans, and I mentioned this before, and we have 
so many units that are C-3 and C-4 [lower readiness ratings]. 
We have got to face that. These are the units that are going to 
go to war, they have to meet these contingencies. And it just 
seems as though we never cut back on them, they continue to 
grow, and grow, and grow. And it takes a strain on the troops, 
the training, how many--you know I have got Fort Irwin in my 
district, and a couple of years ago we canceled I think it was 
seven exercises. That is unpardonable. At least I am just an 
infantryman, I don't understand everything like that.
    But if we don't have people, and equipment, and units that 
are ready to go to war, then how can we realistically have all 
these commitments with the op plans that are in the top secret 
vault? Now obviously, I am whining here and the problem is you 
are preaching to the choir here. That I think most of us want 
to end the sequester, most of us want to fund what you need, 
but I think we have to be realistic in that you can only do so 
many things.
    And you have to tell Congress, hey, I am sorry, but you 
haven't given us the money and we are going to be a permanent 
C-3 or C-4 and we can't fight anybody. And I know that is a 
tough thing to say, but can you kind of comment on that radical 
statement I just made?
    General Anderson. It wasn't very radical, Congressman, it 
was real. The issue is without the sustained predictable 
funding, we are not going to get to what you are describing.
    So, if we can get off of CRs, get rid of sequestration, 
enact budgets, we--as we look towards--as you heard us talk 
before, with the expected resources we think we are going to 
get, we are talking best case FY 2021 to get two-thirds of the 
Army at a C-1 fully capable, C-1 means you can do all your 
missions when you deploy, C-2 means you can do most. It will 
take us until 2021, best case, 2023 worst case. And the issue 
right now is we are trying to shoot for on or about 2019 to see 
some impact based on the sustainable readiness that we are 
trying to implement which gives people a much more predictable 
model of how we employ them.
    But your bottom line position right up front is, with the 
current throughput requirements we have right now and what the 
chairman talked about, the ones that we can't control, we are 
still required to meet those COCOM requirements and that is 
taking a unit to come right out of that place called the 
National Training Center and get on a plane and take off. That 
is exactly what the phenomenon is right now.
    Mr. Cook. Do we need to do more in Congress, in other 
words, a sense of Congress--to the commanders and say you have 
got to be realistic in terms of the number of op plans on there 
or we are never going to be able to be a C-1 or C-2. It is just 
until we prioritize where we are going, you know, how they 
going to do it? It is almost impossible.
    General Milley addressed this this morning. I won't go into 
it, it was classified, but most of us--he was spot on, it was 
great. My God you walk around and you say to yourself, boy I 
need some kind of antidepressant pills after this, but that is 
the world we live in. And so, I know, obviously I am 
frustrated, and I know you are frustrated, and we will do our 
best. But you have--too bad we don't have all 435 Congressmen 
and women packed into this and the 100 Senators and they heard 
what we had to hear.
    So I yield back. Thank you.
    Mr. Turner. Mr. Kelly.
    Mr. Kelly. Thank you, Mr. Chairman.
    At least week's HASC [House Armed Services Committee] 
Readiness Subcommittee, I asked about the ITEP and if it was 
still the number one modernization aviation program and you 
said that it was. As you know, the high, hot challenges in both 
Iraq and Afghanistan often require rotary wing to limit 
payloads due to inadequate engine power for the mission or for 
environmental condition.
    ITEP was funded at $52 million in 2016, in FY 2016, and 
$116 million in 2017 defense appropriation bill which has 
passed the House last week but still has to go through the 
Senate. That is a sizable funding difference year-to-year due 
largely to the recently awarded contracts for the preliminary 
design phase of the program.
    Please tell the committee how the continuing resolution 
impacts the ITEP program and what are the downstream effects of 
ITEP modernization readiness for the Army's Black Hawk and 
Apache fleet?
    General Murray. Congressman, we don't think the CR in and 
of itself will impact ITEP because it is not a new start as you 
mentioned, so I think we are okay in terms of the CR.
    Now, BCA sequestration is a whole different story. So if we 
were to go back to sequestration or BCA in 2018, and I won't 
presuppose that ITEP would be one of the bill payers, but the 
Army would have to find significant bill payers just to do what 
the most critical things the Army has to do. And ITEP is a very 
important thing for all the reasons you mentioned. It does 
restore high hot, it restores some of the mission payload to 
commanders that we have lost over the last few years. And it 
potentially is a critical stepping stone to FEO [forcible entry 
operations]. So ITEP is one of our more important programs, but 
it would have to be looked at it if we were to go back to BCA-
level funding.
    Mr. Kelly. And my next thing, and you, Generals, will 
understand this, we can't afford another Task Force Smith. We 
cannot afford to put our soldiers in a risk situation which 
they aren't equipped and trained to face any forces that we 
have. And we talk about M1 battle tanks and we talk about 
Bradleys, and infantry fighting vehicle, and we talk about the 
main end items.
    But I am an engineer, I just got through with the engineer 
brigade command, and I can tell you our bridging assets today 
don't look like what they did in the 1980s as far as 
capabilities, and at the corps level and higher, I don't know 
that we have enough. I don't know that they are modernized 
enough. And you guys know the river crossing operation is the 
most complex we face, either that or breaching operations and 
also our short gap technology.
    So what are we doing to make sure we are modernized whether 
you are talking about air defense, mobile air defense systems, 
or engineers, the newest best to make sure that we can fight an 
enemy, because we are not always going to be in the desert. 
There are some places that still have rivers and complex 
terrain.
    General Murray. I thought you were going to say our 
engineering equipment looked exactly like it did in the 1980s 
and I was going to agree with you.
    So for the engineering piece, start with that. So you are 
familiar with the JAB [Joint Assault Bridge] vehicles, so that 
is continued and that is a program of record. We continue to 
develop and field the JAB here eventually. But just like 
everything else, it is going to be a very extended fielding 
time line--based upon, how many we can afford to build in any 
given year.
    The AVLB [Armored Vehicle-Launched Bridge], as you know we 
still have M48 chassis carrying bridging assets. And so in an 
effort to get rid of the 48 chassis, we have only got 60 and 
60s and M1 chassis carrying the scissor bridge. And we are also 
doing a recharacterization of the scissor bridge right now, 
trying to get it to at least an 80, if not 90-ton load so it 
can carry the tank that we have got. HETs [Heavy Equipment 
Transporters] are another issue. We are working on upgrades and 
potentially a new HET to carry the tank as well. So a lot of 
this is not keeping track.
    Now on the air defense side really several efforts and so 
we are bringing Stingers back into the inventory, although not 
approved yet, we are looking at putting Stingers back into the 
maneuver formations to provide some short-range air defense. We 
have got to recap those Stingers. We are looking at a prox 
[proximity] fuze on the Stinger as well, a service life 
extension with a prox fuze.
    We are pulling old Avengers out right now and recapping 
them to get them to Europe because that is the quickest thing 
we can do. We are also due to have an air defense maneuverable 
SHORAD rodeo, if you will, this year where industry will bring 
their best bids in and we will see if we can come up with a 
better solution for the longer term. Plus upgrades to Patriot, 
plus I think in the 2017 money you will see some buys for THAAD 
[Terminal High Altitude Area Defense] missile interceptors.
    Mr. Kelly. And the final point I will make and I don't have 
time for an answer, but I just hope that we are really looking 
in Europe and making sure that we have adequate forces. In the 
1980s we had adequate armored forces over there to take care of 
our business as a partner in NATO [North Atlantic Treaty 
Organization].
    And I just hope that we are looking at having HBCTs [heavy 
brigade combat teams] over there, not light--and I see the 
infantry thing, I want to be sure we have HBCTs and the proper 
capabilities to go back to not necessarily to the Cold War, but 
we need to be prepared to defend our NATO allies.
    And with that, I yield back, Mr. Chairman.
    Mr. Turner. Mr. Banks. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Lieutenant General 
Murray and Lieutenant General Anderson, thanks so much for 
joining us, thanks for your leadership.
    Lieutenant General Anderson, I want to go to your comments 
where you talked about the funding deficits causing the Army to 
leave our combined training centers, our combat training 
centers. They are not used the way that they have normally been 
used, but you also spoke about the need for units to have 
opportunities at home training bases, to make sure they can 
develop those tactical skills, those small unit level skills.
    In Virginia I am proud to have Fort A.P. Hill in the First 
Congressional District. As you know, it is a regional 
collective training center. And I have talked to the folks 
there recently we have had units like the 82nd Airborne come up 
from Fort Bragg, do a heavy drop, do an exercise there. Our 
units are able to learn, do the same things that they could at 
the CTC, gather back up and go back home all in the same day. 
Great training opportunities where we can use resources, assets 
there, most efficiently.
    Let me ask how you envision using our RCTCs [Regional 
Collective Training Capability] in relation to not being able 
to fully utilize our CTCs because of funding issues and 
bringing units in for longer term periods of time. If you can 
do this on a daily basis or at least a smaller scale where you 
don't have the expenses associated with that. Give me your 
perspective on how you use the RCTCs in this situation?
    General Anderson. Sure, sir, thanks. They are enablers. So 
as you know, the CTCs are very focused on the decisive action, 
full spectrum, unified land ops. Places like A.P. Hill, 
Muscatatuck in Indiana, when we can get closed networks, closed 
environments, where we can deploy--obviously deployability is 
very important to us, that I can snap somebody out, and bring 
them back, and make sure they are out loading and putting 
pallets and as you mentioned doing heavy drops, and rail and 
convoys. But any time we can take somebody off of the backyard 
that they know and send them somewhere else to do a focused 
exercise, again preferably joint, preferably multi-compo 
[multiple components], and preferably with our allies.
    And the more we can package those and the niche 
capabilities, and we use A.P. Hill a lot, that it is very 
popular with places like Bragg as you said. Muscatatuck is 
becoming the cyber because they have got an underground system, 
you can shut the power off, you can shut the water grid off, 
you can actually pick locks and manipulate cameras.
    So places that have those kind of capabilities, we want to 
leverage, and again, tend to make them a little bit more 
functionally focused, but again collaborative with what we just 
talked about.
    Mr. Wittman. It seems to me that they have a great 
opportunity there. I understand that it is tougher to do things 
at the brigade scale in a joint training exercise, but our 
JRTCs [Joint Readiness Training Centers] I think have that 
capability. It is, I think, good to practice mission planning 
for our teams to make sure they get there, they understand that 
they go to an unfamiliar place instead of doing the same thing 
time, after time, after time, in the same DZs [drop zones] that 
they have been in all the time. So that I think is great for 
our troops.
    Let me ask too a little bit on the training side. You've 
looked to reduce the mandatory training burden to make sure we 
are actually doing things that are substantive. You know 
sometimes we have gotten in this instance of checking the box, 
you know doing those kinds of things and really looking at the 
utility of that. And there is a value to MOS [military 
occupational specialty] specific training opportunities.
    Give me a perspective on how you have looked at maximizing 
the utility of the time of our soldiers, both in the Active, 
Reserve, and Guard Components to make sure that when they are 
there training that they get the most of out of that, it is not 
just a check the box thing. Many times it is kind of generic, 
people look at it and go this really isn't helping me in the 
time that I have to spend on my one weekend a month and my 2 
weeks during the year. And we are going to have to use that 
Guard and Reserve Component to the maximum utility and make 
sure they can do things.
    Give me your perspective on how we make best use of the 
training time that we ask them to devote?
    General Anderson. Sure, sir. Without the total Army we will 
not survive. So three divisions right now, Guard divisions, are 
deployed; one is homeland, two are abroad, Jordan, Kuwait, 
Afghanistan. And five BCTs are employed in support of COCOM.
    So the keys here are how do you incorporate, inculcate the 
training requirements you want through what you describe like 
going to places like A.P. Hill? Things you do actually in a 
collective training environment versus sitting around like we 
are right now and flapping some slides up and saying back to 
you checking the block. Okay, I showed you five slides on 
sexual harassment assault, that means we are going to be good 
at sexual harassment assault. No, it is not.
    It means leadership. It is training and you can take that 
across any function, any area you want to talk about, but how 
do you take those things off the plate, build resiliency for 
example in road marches and on ranges, rule of law of land 
warfare, conduct of law, that is on a range, that is not an 
objective, not in a classroom saying you don't do certain 
things to our adversaries.
    So taking those off the plate in a classroom, putting them 
in a field environment, and then maximizing the synergy from 
those combined, joint, multi-compo exercises where you are 
doing that stuff all together, because the key to a successful 
combat training center rotation is great home station training 
on the front side, backside, and all the other events that you 
can do in between.
    And when the Guard is doing something and the Active is 
there, and when the Active is doing the something the Guard is 
there and the Reserves are there, and you get the synergy from 
that. But not going through saying this many hours, this many 
slides, here is the program, and if you don't do that you are 
not qualified, certified. And by the way, all the requirements 
that the COCOMs put on us that are typically redundant, 
excessive about getting somebody on an airplane to go to 
someplace like Baghdad.
    So how do you meter all those? But again, the Reserves, if 
they follow the old mandatory training model it would take 
every weekend, all year to meet all those requirements, and all 
you would do would be the mandatory check the block type 
training, not collective MOS training that you just described.
    Mr. Wittman. Thank you. Mr. Chairman, I yield back.
    Mr. Cook [presiding]. Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    I think most of here us get it when we are talking about 
the impact of continuing resolutions and sequestration on the 
military, so I am going to shift gears to a little bit of a 
different subject.
    What can we do to increase the efficiency of the 
contracting process? We have got this Federal Acquisition 
Regulation, the DFARS [Defense Acquisition Regulations System], 
and all the different subparts there. And in particular, it 
seems that there is a tremendous amount of time that is being 
spent to get a weapon system from an idea to the warfighter. 
Many years, maybe as much as 5 or 10 years on occasion, which 
is unsatisfactory, particularly in an emergency situation.
    Is there anything that we can do with our contracting 
officers or our program managers or project managers and their 
relationship to expedite the process or condense this time 
period that not only takes so long, but also tends to drive up 
the cost of any new weapon system that we try to implement?
    General Murray. Neither one of us are acquisition or 
contracting officers, sir, but I am probably closest to it. So 
I will take a swing at that.
    So in your estimate of 5 to 7 years was very generous, to 
be honest with you; if you are talking about a new 
developmental system, in most cases it takes longer than that. 
So we are--and when I say acquisition, it is really--it is just 
not the acquisition and contracting piece of it. It starts with 
a good idea some places you mentioned versus we have a unit 
equipped in the field with that piece of equipment, whatever it 
happens to be. So I do think that there are areas that we can 
find some efficiencies.
    We are trying to do a much better job, as an Army, of 
locking down requirements more quickly in the process and then 
not changing requirements as we get into the development and 
the contracting for that capability because that adds time to 
the process.
    We are trying to get prototypes into the hands of soldiers 
a lot faster in the process so we can really--before we write a 
requirements document, we understand truly what it is that the 
soldiers think about that piece of equipment. And soldiers that 
will be using that equipment help us determine what the 
requirement is for that specific piece of equipment.
    We are engaging industry earlier in the process and more 
continuously in the process to make sure they understand our 
expectations and to make sure we understand what is going to be 
hard about what we are asking them to do and where we need to 
be thinking about making trades before we get into development 
and discover we have got a problem in terms of something we are 
asking for.
    So all that can help, and none of that really touches 
contracting. I know within the [Army] Contracting Command, it 
is a very regulated process that we follow, because every time 
a mistake was made in the past, we added another regulation, we 
added another standard operating procedure or we added another 
whatever it is. And so the AMC [Army Materiel Command] 
commander who is in charge of that has gone through and tried 
to streamline the amount of requirements just down to what the 
bare minimums are so we can actually get contracts done in a 
more expedited manner.
    Mr. Brooks. Lieutenant General Anderson, do you have 
anything to add?
    General Anderson. I do, sir. I would say from a couple of 
jobs I have had and what I manage now I would say number one we 
established that Rapid Equipping Force to provide a 10-liner 
capability for the warfighter; when they were able to put in a 
description of what the requirements were it went typically 
straight from the warfighter to that organization who would 
figure out how to outsource to make that happen in a very 
similar to what our rapid acquisition office is trying to do 
now in the Pentagon.
    But also the operational needs statements, when you are 
deployed and you are trying to meet requirements on a short-
term basis those are typically developed for cases where the 
materiel exists, the hardware exists, the technology exists, 
and it is more an off-the-shelf approach. But when you are over 
there--like the counter-UAS [unmanned aircraft systems] fight 
we are dealing with now in Iraq.
    So how do you find current existing ways to deal with RF 
[radio frequency] spectrum, the DroneDefender, the AUDS [Anti-
Unmanned Aerial Vehicle Defense System], the CORIAN [counter-
UAS system]. These are all things that have been patched 
together in many cases using old Duke [counter-IED system] kits 
and transmitters, and how you link that stuff all together, and 
you use the ingenuity of soldiers to make a mobile capability 
to knock these drones down. That is the kind of stuff we don't 
have time; you don't have 10 years.
    They are dropping bombs and dropping chemicals on FOBs 
[forward operating bases] now. So you can't wait 5, 7 years, 10 
years for that. It has got to get there as quick as it can. And 
again, the more rapidly we allow people that are actually--like 
we used to do when we were over there, take the technology 
early and experiment with it over in theater, and if it works, 
great. And if it doesn't, you send it back. But at least you 
are not waiting for some long acquisition testing process to 
achieve effects.
    Mr. Brooks. Thank you for your service and for your 
responses. Mr. Chairman, I yield back.
    Mr. Cook. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank our 
witnesses for your testimony today and for your service to our 
Nation.
    To each of you, if you could comment on this, I have been 
increasingly concerned about the atrophy of our electronic 
warfare [EW] capabilities, as they are absolutely critical to 
our operations abroad. We have probably touched on some of 
these during the course of the hearing, but can you discuss the 
most urgent modernization needs in this field? And how are you 
prioritizing this capability within the Army?
    General Murray. Yes, sir. And thank you for that question.
    In terms of EW, we have got several programs of records 
that are working so we have got electronic capability right now 
in terms of counter-IED. And that is really where we have 
focused our efforts for the last few years. So we are trying to 
recapitalize what we have done with Duke to use it in, as 
General Anderson mentioned, in different ways.
    The current focus of effort is the counter-unmanned aerial 
system fight in Iraq right now. And as General Anderson 
mentioned that we have fielded numerous systems trying to 
figure out the sweet spot the right way, but right now it is 
primarily an electronic attack solution.
    And then a little bit further in the future is really 
developing tactical level EW capabilities. And we used to have 
pretty significant electronic warfare capability, both from 
understanding the electromagnetic spectrum, to the electronic 
protect, to the electronic attack. And that is one of the 
things when we got involved in counteterrorism was not nearly 
as important that we hadn't put a lot of time into.
    So things like the multifunctional electronic warfare suite 
of equipment that is a program of record. So the first one is 
to be mounted on a probably a Grey Eagle unmanned aerial 
system, so it gives you an air capability, both to understand 
the spectrum and to affect the spectrum.
    Next would be a large ground system, and then finally would 
be a small ground system to replace our counter-IED stuff and 
do stuff at a smaller dismounted soldier, almost individual 
soldier level. It is really getting that capability back into 
our tactical formations.
    General Anderson. And, sir, a subset of that is the 
electronic warfare planning and management tool, which gives 
commanders a common operating picture of what the environment 
is. So you take that MQ-1 [unmanned aerial vehicle] capability 
which will be fixed, will be rotary, it will be ground, and it 
gives them the ability to see it. And then further developing 
our electric fires, which is the lasers, the microwaves, the 
railguns.
    So back to what Mike is talking about, how do you enable, 
how do you operationalize, how do you give capability to 
commanders on the ground to actually do something with this 
stuff besides just worrying about secure nets; it has got to be 
bigger than that. It is how you actually have the capability to 
attack something versus just defending yourself.
    Mr. Langevin. Thank you. Can you talk about how Russia and 
China in particular are employing EW against us? And what else 
do we need to respond?
    General Anderson. Well, that is one of the categories that 
we have been outpaced here. So the question becomes again how 
do we--what do we learn from those technologies they are 
employing? And they are doing it very effectively. And the 
issue becomes we are playing catchup. And so it goes back to 
what Ms. Tsongas was talking about as you look at RDT&E, how do 
we figure out what they are employing? We get pretty good 
feedback from effects in places like the Ukraine, and a little 
bit easier to focus on what they are doing in Eastern Europe 
than China, per se.
    But how do we learn from those technologies, capabilities 
they are employing and then how do we enable us, evaluate, 
assess, inform what we are doing forward, based on what we are 
seeing; but right now we are in the learning mode from what 
they are employing, in the catch-up mode.
    Mr. Langevin. Okay. Thank you. As I said, I have become 
increasingly concerned about how our capabilities have 
atrophied over the years, have not kept pace with our 
adversaries. I know that the Pentagon is responding and we have 
a program that we are dedicated to in playing catchup, but I 
know there is a lot of work to do.
    The WIN-T [Warfighter Information Network-Tactical] 
Incremental 2 system on-the-move broadband communications 
backbone of the Army is currently being procured at a rate of 
two per year, although I understand it may be possible to 
reduce the overall cost of this program by as much as 40 
percent by procuring these systems more quickly. In fact, the 
Army reported to Congress in June 2014 that the most economical 
projection rate would be as high as eight brigade sets per 
year, which would provide WIN-T to our service members well 
over a decade earlier than at the current rate, ensuring the 
superior technology they are using is up to date.
    Well, accordingly the decision was made in July 2015 to 
move to full-rate production, but the Army has not yet done so. 
Do you intend to use that full-rate production decision to 
procure WIN-T units at a more rapid pace?
    General Murray. Sir, WIN-T is identical to just about 
everything we do. So we are procuring aviation assets at 
minimum sustaining levels, we are upgrading tanks at minimum 
sustaining levels. We started off with six brigade sets was the 
goal for WIN-T, as you said, we are down to two. It is all 
driven by the resources and how thinly I have got to spread the 
resources to keep the programs going.
    So I would love to buy everything at an economic price 
point and save money on every system. The fact of the matter is 
the best we can do right now in most every case under--I am 
talking today and the past, is that min [minimum] sustaining 
rates or close to that to keep production lines warm so we can 
expand when resources come.
    But my fundamental question is, I would love to buy 
everything as cheaply as I possibly can, given what I have got 
to buy and how thinly I have to spread the resources. We just 
can't afford to go much above where we are right now in terms 
of the production rates.
    Mr. Langevin. I certainly hope we are going to be able to 
address that, and certainly doing away with sequestration would 
help quite a bit. But ultimately we want to get what the 
warfighter needs to them as quickly as possible, at the same 
time let's do what is right by the taxpayer as well. It seems 
like it would be a win-win to me.
    So thank you. Thank you for your service and for your 
testimony today. I yield back.
    Mr. Cook. Thank you.
    General Bacon.
    Mr. Bacon. Thank you, Mr. Chairman. I want to also thank 
our colleague from Rhode Island for his questions on electronic 
warfare. Someone who has served almost three decades in the Air 
Force doing electronic warfare, I do know we are falling 
behind, and the Russians are investing, the Chinese are 
investing. We have a lot of catching up to do and I appreciate 
your all's focus on that. I want to thank you both for your 
leadership to the Army and the Army Staff. Grateful to you.
    Your vice chief said recently that only 3 of 58 combat 
brigades could deploy. Is that still the case?
    General Anderson. It is, but a caveat. That was the three 
in the top category. There is--and I am going to try and keep 
away from numbers here, we had a problem with this last week so 
you kind of forget where you are.
    So we are in the ballpark of a little bit on the low side 
of 20, that can actually go out the door at the next level of 
ratings so he spoke about the top three, there is a remainder 
that could go out the door.
    Mr. Bacon. And so it would be at the top tier for a very 
short response window and only 3 of 58, but there is a next 
tier that could do better? Is that right?
    General Anderson. That is correct.
    Mr. Bacon. I got that right? I just think it is a disgrace. 
Our Congress and previous administration owed you better. When 
we talked about going back to the hollow force of the 1970s, it 
has got to be one of our top priorities to fix. And I think 
this Congress is set to do that. We are going to work hard to 
put us in a better spot to do deterrence and make sure that we 
keep the peace. And we do that by having the ability to deploy 
and that our enemies and potential adversaries know that we can 
do that.
    In your testimony you talked about being outgunned, 
outranged, outdated. Would you say the Russians' latest tank 
can outgun and outrange our modernized M1?
    General Murray. It depends probably, Congressman, on which 
tank you are talking about. And I am not a T-14 or Armata type 
of guy because I don't think they have gone into development or 
full production of that capability. I would say that in terms 
of what I would call their most recent fully fielded tank, the 
T-90, I would say that the M1 is still very equivalent. I don't 
think we are necessarily from that platform. Now there are 
systems that they can use, that do outrange the M1 tank, but I 
would stack the M1 up against the T-90.
    Mr. Bacon. So right now they are producing tanks about 
rough parity with ours. What about in the attack helicopter 
range, are they producing helicopters, attack helicopters that 
can outrange, outgun ours?
    General Murray. I would say once again, probably close to 
parity.
    Mr. Bacon. Parity again. I don't like parity, by the way. I 
don't want to have a close fight. I think we should not want to 
have a close fight.
    What about artillery, how does their artillery stack up 
with ours?
    General Murray. That is a little bit cleaner. They have--
and it is just not a capability, it is a capacity issue as 
well. So in terms of capacity, they have significantly more 
artillery, both rocket and cannon artillery than we do and they 
do in fact outrange our systems.
    Mr. Bacon. You know, the Russians have historically put a 
lot of emphasis on artillery.
    I wanted to ask you about Europe. When I was the commander 
at Ramstein, I think the last combat brigade or last combat 
unit for the Army was taken out of Europe. Do we have plans to 
put combat units permanently back into Europe, especially with 
what Russia's been doing?
    General Anderson. There is two forward station brigades 
there, the 173rd still headquartered in Vicenza and the 2nd 
Cavalry Regiment in Vilseck. So those are the two assigned 
forces to Europe. And we began here this January the first 
ever--you know, I think you are familiar, we had the European 
Activity Set where we were deploying----
    Mr. Bacon. It's a great initiative.
    General Anderson. That's part of ERI [European Reassurance 
Initiative]. We put units on top of it, but they didn't stay. 
Pieces, parts of the unit came for different parts of the year. 
And for about a month or two, maybe up to three, the whole 
brigade was actually all there at the same time. Starting in 
January, we deployed the third brigade of the fourth ID 
[infantry division]. Now we call it a heel-to-toe, so the whole 
brigade is there.
    They are based in Zagan, Poland, but they extend all the 
way up into the Baltics, and they go all the way back to 
Grafenwoehr by squadron, by battalion, for gunnery for a couple 
of months. They will all consolidate in Romania in July for 
Saber Guardian. But the bottom line is that brigade, with their 
kit, they bring it from home so the kit is better maintained, 
they employ it, go do gunnery, go do road marches, go do 
CALFEXs [combined arms live-fire exercises], go do whatever 
with our partners and then they go back home in 9 months. So 
that will be now a second brigade----
    Mr. Bacon. It is a rotating combat brigade.
    General Anderson. It is a rotating. And before that brigade 
goes, just like when we were brigade commanders in Iraq, you 
didn't leave until the next brigade showed up. So now the next 
brigade shows up, they download, they do an actual relief in 
place, and then the brigade will go back to Colorado, and the 
brigade from Fort Riley will be----
    Mr. Bacon. If we had the resources and it plussed-up your 
resources, would it be wise to have a permanent combat 
brigade----
    General Anderson. People argue that, obviously a policy 
issue, and of course a very resource-intensive one. So you are 
probably seeing some of the things in the press where Europe is 
doing some of the costing of what they could do Germany pure 
and then what it would take with some of the other host nations 
in places like Poland to go ahead and have concerns, things 
like that down the road.
    Mr. Bacon. Okay thank you. I have one other question about 
ISR [intelligence, surveillance, and reconnaissance] but I will 
put it down for the record. Thank you for your time. I yield 
back.
    General Anderson. Thanks for your service.
    Mr. Cook. Thank you.
    Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair, and Ranking Member 
Tsongas. Thank you Lieutenant General Murray and Anderson for 
coming here today. I appreciate your service and your 
addressing us today.
    I would appreciate it if you could answer the following for 
the record. Last week the Marine Corps testified before the 
subcommittee on the same topics and I asked them to comment on 
the female body armor programs and their plans for providing 
better fitting armor for female marines. Could you share 
details of the Army's program to do the same and how you are 
coordinating, or not, your efforts with the Marine Corps?
    General Murray. Thank you, Congressman. And absolutely. And 
to answer your last question first, we meet with the United 
States Marine Corps, both their combat developers and their 
resourcers, about once a quarter to discuss topics just like 
this. And as a matter of fact we have talked about this in the 
recent past.
    So we have kind of learned over the last few years that 
body armor does not fit all makes, shapes, and sizes. And the 
one thing I would say is you will never make body armor that is 
completely comfortable. I have been wearing it for 35 years; I 
don't think I've ever put it on that I would say it was 
comfortable. So that is just a fact of life.
    Protection has to be the number one priority; I mean, that 
is why we build the body armor. But we do in fact have modified 
the IOTV [Improved Outer Tactical Vest], the individual 
tactical vest, to better form fit our females. We have reduced 
the size of some of the plates, still providing protection, so 
that it is a better form fit.
    The combat ballistic shirt, we do have specific form fits 
for our female soldiers. And we have gone through additional 
sizes for the shoulder protections and the torso protection 
which you hang on the sides to better form fit not only our 
female soldiers, but our smaller male soldiers.
    So the answer to your question is yes to both; we do work 
with the Marines on that and yes, we have learned those 
lessons.
    Mr. Carbajal. Thank you. I have worn that body armor and I 
know it is not comfortable. But certainly it could be a lot 
more comfortable depending on your body shape, so I appreciate 
you sharing.
    According to the DOD's annual energy and management report, 
DOD's operational and installation and energy represents 
approximately 80 percent of total Federal energy consumption 
and the Army is the largest consumer of installation energy. In 
what ways is the Army working with the defense industries to 
invest in energy innovation?
    General Murray. That is again probably outside of both our 
areas of expertise, but fortunately both of us have commanded 
several installations so just from personal knowledge, and I 
most recently came from Fort Stewart, Georgia, so I know for a 
fact that on Fort Stewart, Georgia, we had a wood chip burning 
plant if you will.
    So obviously in Fort Stewart, Georgia, there is a lot of 
pine trees and a lot of forestry goes on. We would go out as an 
installation, police up tree tops, tree roots, tree trunks, et 
cetera, grind them and burn them to heat the water--very clean 
burning, but burn them to heat the water at Fort Stewart.
    We also did a partnership with Georgia Power, put in one of 
the largest solar fields in the State of Georgia just outside 
of Fort Stewart that would serve that installation if power was 
ever cut, but otherwise it goes onto the grid for the greater 
use of the State of Georgia, and that is just one installation.
    Our last ASA [Assistant Secretary of the Army] Miss 
Hammack, was very focused on this effort so I know at Fort 
Benning, Georgia, there is another solar grid and she was 
working throughout the United States on initiatives just like 
you are talking about.
    General Anderson. And I commanded Fort Carson, Congressman, 
which was an energy efficient megacity out there. And we had 
solar panels because of the altitude and the sunshine there 
virtually every day. We had panels everywhere. But we were also 
the test bed for electric vehicles so we had--trying to reduce 
energy consumption on it.
    Now the question was going to be how well it was going to 
be applied in a tactical environment. It was being applied in a 
garrison environment, but it was not using fuel vehicles, it 
was using electrical vehicles that would plug into the actual 
division headquarters, a humongous charging power grid there 
that recharged the vehicle for a 24-hour burn. And we were 
using those things all over the place to deliver supplies, 
mostly logistic sustainment related stuff.
    And the issue was going to be what was going to be the 
expandability in a field environment, and of course everything 
we are dealing with here in the building in Washington does 
deal with size, weight, and power. When we do procure things we 
are looking on what is in the rechargeable realm, what does use 
renewable energy, but how do you from weapon systems, to 
communication systems, to vehicles, how do we import those 
technologies so it is not a fuel heavy, petroleum heavy 
environment.
    Mr. Carbajal. Thank you. Thank you very much. I yield back.
    Mr. Cook. Thank you.
    Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman. I wanted to ask both 
of you about the continent of Africa just because I have been 
interested in some of the ungoverned areas there which, as we 
know, can be an issue for new radicalism. And I wanted to ask 
you about the effect of sequestration and budget caps on the 
Army's missions in Africa. And how are units managing 
preparation and training for missions to this region along with 
the eight other operations the Army currently supports?
    General Anderson. Well, one of the named operations, 
Congressman, is in Africa, in the Horn of Africa. So the 
problem we are having in Africa is, as you know, a huge 
continent between Lord's Resistance Army, Boko Haram, Al Qaeda, 
ISIS [Islamic State of Iraq and Syria], et cetera. The 
migration north as you go up towards places like Libya, when 
our brigade combat teams are going there, they are getting kind 
of broken apart to deal with the numerous requirements. There 
are some Gray Eagle [unmanned aircraft system] support, there 
is security force issues, and there is also some of these 
logistics bases as hubs that we are using in Africa.
    So the problem is the expanse, the troop-to-task 
requirements. And so when a BCT goes there, unlike when a BCT 
goes to Europe, the BCT goes to Europe and stays pretty much 
tactically pure at least to the battalion task force level with 
fires, aviation, maneuver. That is not the case in the 
continent of Africa because of what the requirements are there 
and how we are breaking down into a much smaller company and in 
some cases even platoon level to deal with the different 
requirements.
    So our challenge is how do we get a common operating 
picture of what that looks likes requirement-wise and what is 
the best way to support the requirement based on what the task 
is. So what really should a BCT be doing over there versus 
other types of units or smaller scale requirements in support 
of AFRICOM [U.S. Africa Command] or United States Army Africa, 
and that is the constant challenge we are having right now in 
how we are providing support there.
    Mr. Veasey. Do you think with the Chinese constantly 
expanding their footprint on the continent of Africa, as you 
know, we don't have--we have operations there, we don't have a 
U.S. base there like we do in Europe and other parts of the 
world. Do you think that that is a mistake in dealing with that 
particular mission?
    General Anderson. I think that is part of the assessment we 
have to make. What are they trying to achieve? How much of that 
again is via influence or action? And what is the counter to 
that? But when you put that on the context of what I just 
talked about, you are just complicating the factor by what they 
are trying to do typically subvertly. And how do you counter 
that? And what does it take to do that? And that just adds to 
the complexity on the continent.
    Mr. Veasey. Thank you. Let me move over to Army aviation 
assets. I wanted to ask you which assets would you prioritize 
if we still have sequestration in FY 2018? And which stand to 
undergo the greatest cuts.
    General Murray. So we haven't reached that point yet. 
Hopefully, we won't, Congressman, but I would prioritize active 
protective systems for our aircraft, because there are threats 
out there right now that we just--we need to develop some new 
technologies, and we are, to provide protection for our 
aviators. I would put that as number one.
    And then personally it would be difficult for me to decide 
between the AH-64 versus UH-60 Mike model, the Echo model for 
the 64 or the Mike model, or the CH-47 Block II, because they 
are all required.
    So my guess is we would prioritize the active protection 
and then we would continue to go at min sustaining rates across 
all of our aviation lines and upgrade as we can and we just 
drag out further than we were planning right now.
    Mr. Veasey. Which systems would you prefer to divest if 
given the opportunity?
    General Murray. Well obviously, we still have some [OH] 58s 
out there that we still have to get rid of, the TH-67s we are 
getting rid of--all part of our ARI [Aviation Restructure 
Initiative]. We need to get rid of the Alpha model of the UH-
60s and we are on track to do that first in the National Guard 
and then in the Active Component. And then as we go to Block II 
of 47, the older 47s.
    Mr. Veasey. Thank you. Mr. Chairman, I yield back.
    Mr. Cook. Thank you.
    Ms. Tsongas.
    Ms. Tsongas. I have one just sort of--it is more or less a 
follow-up question. But General Murray, I would like to get a 
sense of how the Army is integrating commercial off-the-shelf 
[COTS] items in areas as basic as boots to areas as 
sophisticated as software given the fiscal constraints. The 
real needs around manpower, the needs to modernize, and needs 
to equip.
    What impediments are you facing to the further introduction 
of COTS materials? Are these impediments related to procurement 
regulations or issues related to licensing and intellectual 
property? And what do you need from Congress--if these are 
impediments, what do you need from Congress to better address 
them?
    General Murray. General Anderson mentioned how we do 
equipment through the Rapid Equipping Force, which is based 
upon ONSs [operational needs statements] and JUONSs [joint 
urgent operational needs statements]. So there are some 
statutes and legal things that can be done through that process 
that are currently prohibited, for instance the Berry 
Amendment.
    So you mentioned boots; this is a recent scar tissue for 
me. So we just went through jungle boots for the 25th [Infantry 
Division]. And it was as simple as the Chief of Staff going 
down there and identifying a problem, coming back and saying, I 
want boots. And I basically spent probably a couple months 
figuring out how to work my way through the acquisition rules 
to get to a point where we could just go buy boots and put them 
in the hands of soldiers. And we just fielded them in March, so 
we were able to be do that in about 3 months.
    So there are ways of doing this. I am not going to say that 
it is easy. The software piece--and I am not the software 
expert--our software is kind of procured through the PEOs 
[program executive offices] and PMs [program managers], but I 
know we procure software that way, not purely a commercial 
item. And really we are trying to do this smarter, so in the 
past we have--if I was going to buy boots or a very simple 
vehicle like the ground combat vehicle--I am sorry, not the 
ground combat vehicle, the small GMV [ground mobility vehicle] 
basically to get soldiers from point A to point B, we would 
figure out how to do it for the entire Army.
    So for the boots, I am not buying for the entire Army. I am 
buying for the soldiers that need the jungle boot and we are 
putting some in contingency stocks if we have to go fight in a 
jungle environment. And that is where we are going to stop the 
jungle boot.
    For the small Gator-like vehicle, we are going to buy off 
of an existing SOCOM [Special Operations Command] contract. We 
are going to buy five BCTs' worth, and we are going to see if 
we need more. If we need more, we will go into a full and open 
competition for the other 30 infantry brigade combat teams.
    So we are trying to break the paradigm by doing things in 
smaller scales, because the other thing is with the resources 
we have, if I was going to buy for the entire Army, it would be 
years, and years, and years, and the technology would be 
updated by the time that I buy the last brigade's worth of 
equipment.
    If we buy in smaller chunks and then you know in 2 years, 3 
years we go after the most up-to-date stuff, commercially, if 
possible limited new development is we are having some pretty 
good success. It is the same way we are going after mobile-
protected firepower. It is very clear to industry we are not 
interested in new development because we want it quickly and we 
know the technologies that are out there to give us what we 
need.
    Ms. Tsongas. Well, if there is any way we can be helpful, 
we look forward to helping with that, because you are right on 
a number of fronts, it is a huge investment if you are thinking 
across the Army, technology changes so quickly it can become 
obsolete just as quickly, so quickly and so a whole host of 
challenges. We are happy to work with you.
    And I yield back.
    Mr. Cook. Thank you.
    Gentlemen, I want to thank you very much. You spent a lot 
of time here. A lot of questions, the whole subcommittee. I 
didn't see any notes. So very, very impressed.
    You know, for all your service, the troops you have, very, 
very proud of you. And once again, on behalf of the committee I 
want to thank you.
    This meeting is adjourned.
    [Whereupon, at 4:52 p.m., the subcommittee was adjourned.]

     
=======================================================================


                            A P P E N D I X

                             March 16, 2017
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 16, 2017

=======================================================================

      
      
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 16, 2017

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. What are the immediate and near-term impacts to Army 
modernization if funded under a year-long continuing resolution (CR) 
for FY17, and would you experience any Nunn-McCurdy breaches in 
programs as a result of being funded under a year-long CR?
    General Murray. A year-long continuing resolution (CR) would 
significantly impact the Army. Capabilities that will be most affected 
by these delays include lethality upgrades, electronic warfare and 
cyber programs, air and missile defense capabilities, protection and 
mobility systems, and intelligence, surveillance and reconnaissance and 
engineer modernization efforts. Further, the Army's modernization 
efforts would fall further behind to include procurement of Apache AH-
64E new builds and Abrams upgrades. Although no Nunn-McCurdy breaches 
will occur with a year-long Fiscal Year 2017 (FY17) CR, 47 procurement 
and Research, Development, Test and Evaluation new start programs in 
FY17 have been placed on hold pending an appropriation. These programs 
support Army priorities and a full year CR will delay initiation of 
these new capabilities further into FY18.
    Mr. Turner. Please provide the justification and the authorities 
the Army is using to change the acquisition strategy for the Ground 
Mobility Vehicle (GMV) program from a full and open competition to a 
sole source award.
    General Murray. In order to quickly provide the Global Response 
Force with this critical capability, the Army approved a Directed 
Requirement to procure a limited quantity of Ground Mobility Vehicles 
(GMV), leveraging the existing Special Operations Command (SOCOM) GMV 
1.1 contract, testing, and logistics support. The Army will procure 295 
GMV 1.1 for five Airborne Infantry Brigade Combat Teams (IBCTs) 
accelerating the First Unit Equipped by two years compared to a full 
and open competition strategy. The Army is also adopting the SOCOM 
Capability Production Document (CPD) and is no longer pursing a 
standalone Army GMV CPD. We will develop an annex to the SOCOM CPD to 
address requirements for the remaining IBCTs. The Army will pursue a 
follow-on full and open competitive strategy to procure 1,770 vehicles 
to fulfill the Army's total requirement.
    Mr. Turner. In your view, what trade-offs, if any, would most 
likely have to be taken should sequestration return in FY18?
    General Murray. The Army has already been making difficult trade 
decisions for the last five years, and frankly, is at the point of 
losing its technological edge in certain capability areas, thus putting 
overmatch at risk. If sequestration returned in FY18, we would be 
required to further delay and stop development and delivery of critical 
capabilities, putting our formations at greater risk of successfully 
executing missions assigned.
    Mr. Turner. In your witness statement, you list air and missile 
defense (AMD) as a top capability gap to address the pressing needs of 
combatant commanders. Would you please describe how CRs have slowed the 
Army's ability to address this critical gap?
    General Murray. The Army has identified an emerging capability gap 
for a new Maneuver Short Range Air Defense capability. Current legacy 
systems do not address the gap but the Army cannot begin a mitigation 
effort because of Continuing Resolution (CR) new start restrictions. 
Delaying this effort until the next fiscal year would likely delay 
mitigation efforts by 2-3 years. In a similar vein, the Army pursued an 
effort in 2016 to fill a capability gap against electronic attacks. 
Deemed a new start, the impediment slowed our ability to defeat the 
threat and reduce operational risk for deployed soldiers and defended 
assets. A delay to fund the effort until the next fiscal year deferred 
starting the mitigation effort and fielding a capability by 2-3 years. 
I would also like to mention the effects of sequestration. Over 2013-
2015, Congress reduced funding for improvements to the Patriot software 
which would improve capability against the Tactical Ballistic Missile 
threats being faced in multiple theaters. This delayed development of 
mitigation capabilities by 3-4 years. Sequestration also drives the 
Army to fund procurement at levels below maximum production rates so 
that other critical programs can also be produced. This lowers the 
Army's ability to meet operational requirements, such as munitions, 
which increases risk to the warfighter. Limited funding requires the 
Army to strike a balance between munitions, platforms and capabilities 
across all warfighting functions.
    Mr. Turner. What areas of Army Aviation modernization are in most 
dire need of increased funding due to sequestration? What does the Army 
need to reverse this situation?
    General Murray. The three main areas most at risk in Army Aviation 
are: Protection, Reach, and Lethality. The proliferation of advance 
threats requires us to stay ahead of potential adversaries by pursuing 
better protection like Advanced Threat Detection System, Common 
Infrared Countermeasures, and other detect and defeat efforts in the 
radio frequency spectrum. Extending our reach in support of our ground 
maneuver forces requires us to immediately address current aircraft 
shortages, complete scheduled upgrades to the aircraft we have on-hand, 
and continue developing future programs. First, we need to fill the 
holes in our attack helicopter fleet; Apaches are our biggest capacity 
gap. Reach also includes speed, range, power and agility in the 
objective area, and those require us to continue to upgrade existing 
platforms while developing Improved Turbine Engine (ITEP), CH-47 Block 
II, and Future Vertical Lift (FVL). As potential adversaries increase 
their air defense capabilities, we must field more lethal air-to-ground 
munitions with greater ranges. We also have the ability to create the 
capacity for more stored kills in our unmanned aerial systems and 
attack fleets through small-precision guided munitions. If additional 
resources were available, the Army would be able to fill readiness 
holes in the fleet, complete scheduled upgrades to aging aircraft, and 
accelerate developmental programs of the future like ITEP, CH-47 Block 
II, and different FVL capabilities. Reliable and steady funding also 
allows the Army to achieve more favorable economic price points and 
continuity across our industrial base. We continue to mortgage the 
future to pay for current systems.
    Mr. Turner. Under the European Reassurance Initiative (ERI), the 
Army is assembling equipment and ammunition required to support an 
armored division-sized force. This equipment can be used for both 
training and contingency operations. What is the timeline for this 
effort and by when do you expect to have this effort completed? Will 
this pre-positioning initiative require the procurement of additional 
facilities/bases in Europe? Will the armored division pre-positioned 
stock receive new systems such as Joint Light Tactical Vehicles (JLTVs) 
and Armored Multi-Purpose Vehicles (AMPVs) before other units in 
recognition of its important role in the event of a European conflict? 
In a similar manner will pre-positioned stocks have priority in 
receiving new technologies such as Active Protection Systems when they 
become available as well as the latest versions of the M-1 Abrams and 
M-2 Bradley?
    General Murray. By Fiscal Year 2021 (FY21), the Army will build and 
deploy one fully modernized Armored Brigade Combat Team (ABCT) to 
Europe in addition to our current pre-positioned ABCT and rotational 
ABCT. This fully modernized ABCT will contain the latest versions of 
the M1 Abrams (M1A2SEPV3), M2 Bradley (M2A4), M109A7 Paladin and the 
Armored Multi-Purpose Vehicle (AMPV). This will be the first ABCT to 
have all four of those systems. Low Rate Initial Production AMPVs will 
be used to begin equipping the two Army Prepositioned Stock (APS) sets 
beginning in approximately FY20. Additionally, the Army is programming 
funds to procure 120mm Mortars, Mortar Fire Control Systems, and 
Javelins to meet the increased requirement generated by the additional 
European Reassurance Initiative structure. Joint Light Tactical 
Vehicles will eventually be added to the European APS but initial 
fielding will go to our Regular Army and National Guard Infantry 
Brigade Combat Teams. The current Army Prepositioned Stock set is 
equipped with the Army's most modern tanks and Bradleys--the M1A2 SEP 
V2 and the M2A3. Active Protection Systems are not yet available for 
that set. The second Army Prepositioned Stock set which will be 
completed in FY20 and in place in FY21, will be equipped with the next 
versions of tanks and Bradleys--the M1A2SEPV3 and the M2A4. The current 
plan is to equip that set with Non-Developmental Item Active Protection 
Systems.
    Mr. Turner. In recognition of the growing threat from unmanned air 
systems, artillery, rockets, and cruise missiles, the Army is seeking 
to expand its Short-Range Air Defense (SHORAD) capabilities. In this 
regard, what are the Army's plans to develop a SHORAD capability to 
support maneuver forces? Are there potential non-development candidate 
systems which could provide this capability?
    General Murray. We are looking at placing Stinger Teams into 
maneuver companies and funding a Service Life Extension Program and 
Proximity Fuse modernization effort to improve the lethality of Stinger 
Block 1 missiles. Ongoing Army efforts will provide an initial 
Maneuver-Short Range Air Defense (M-SHORAD) capability leveraging 
materiel solutions currently under testing or evaluation. Those include 
systems which can detect, track, Identify, and/or defend against 
Unmanned Aircraft System targets. An M-SHORAD demonstration hosted by 
the Army Program Executive Office, Missiles and Space, is scheduled to 
conclude before the end of Fiscal Year 2017. This has the potential to 
identify non-developmental candidates as well as include a mix of guns, 
missiles, and non-kinetic solutions. In an effort to support the 
European Reassurance Initiative, the Army initiated an Avenger 
recapitalization effort with Letterkenny Army Depot to provide 72 
systems (two battalions' worth of Avengers). One Avenger battalion will 
serve as an Army Prepositioned Stock and one Avenger battalion will 
become an Enduring European Equipment Set.
    Mr. Turner. You have identified munitions as another top capability 
gap. How are the restrictions contained within the Ottawa Agreement and 
the Oslo agreement affecting the Army's ability to fill that gap?
    General Anderson. Antipersonnel landmines (APL)  The United States 
is not a signatory to the Ottawa Convention. As such, it is not 
directly constrained by the treaty's restrictions on the use, 
production, acquisition, stockpile, or transfer of antipersonnel 
landmines (APL). The Army is limited by United States policies on APL. 
Current United States APL policy was originally announced in September 
2014 and is codified in Presidential Policy Directive 37 (PPD 37). 
Under this policy, the United States is aligning its activities outside 
the Korean Peninsula with key requirements of the Ottawa Convention. 
This means the United States will not use APL outside the Korean 
Peninsula; will not assist, encourage, or induce anyone outside the 
Korean Peninsula to engage in activity prohibited by the Ottawa 
Convention; and will undertake to destroy APL stockpiles not required 
for the defense of the Korean Peninsula. One important, indirect impact 
of the Convention is the majority of our Allies (including Japan, 
Australia, and several NATO members) are signatories to the treaty and 
are bound by its restrictions. The Ottawa Convention, in addition to 
prohibiting the use of APL, also prohibits signatory states from taking 
any action that would ``assist, encourage, or induce, in any way, 
anyone to engage in any activity prohibited to a State party under this 
Convention.'' This language would complicate and/or restrict 
cooperation with Allies should the United States decide to utilize APL 
in coalition operations with signatory states. This limits the Army's 
ability to shape the battle in any conflict, other than Korea, with 
current inventories of our Family of Scatterable Mines.
    Cluster Munitions (CM)  The United States is not a signatory to the 
Oslo Convention. Unlike the Ottawa Convention, the Oslo Convention 
allows for ``military cooperation and operations with States not party 
to this Convention that might engage in activities prohibited to a 
State Party,'' subject to restrictions provided by national 
legislation. The 2008 Department of Defense CM Policy prohibits the use 
of any CM with a greater than 1 percent unexploded ordnance rate from 1 
January 2019. The policy has significant impact on all Army indirect 
fire systems--the Army Tactical Missile System, Multiple Launch Rocket 
System and the guided variant, and 155mm artillery as there is 
currently no near-term (by 2019) replacement for this important 
capability.
    Mr. Turner. Among other military-related initiatives, the 
Administration has called for increasing the Army's Active Duty end 
strength by 36,000 soldiers to 490K by the end of FY 18. As part of 
this increase, I understand the Army is considering adding three new 
Armored Brigade Combat Teams (ABCTs)--one by conversion and two through 
growth--and an Infantry Brigade Combat Team (IBCT). Reportedly, the 
Army plans to build two new Security Force Assistance Brigades in the 
Active force--one in FY18 and one in FY19. These new brigades will 
require a myriad of equipment ranging from small arms to vehicles. What 
are some of the equipping and modernization challenges related to these 
new brigades, as well as ``growing the Army''?
    General Anderson. The Security Force Assistance Brigade (SFAB) will 
be tailored to the security force mission, approximately 1/10th the 
size of an Infantry Brigade Combat Team (IBCT), with most of the 
equipment a subset of a standard IBCT's equipment. I do not anticipate 
challenges equipping the SFABs if we are properly resourced. Ultimately 
SFABs will allow us to more efficiently perform security force missions 
while preserving the readiness of our IBCTs. In terms of converting an 
IBCT to an Armored Brigade Combat Team (ABCT), we are looking at 
options to utilize existing equipment to accomplish this conversion to 
make it affordable and to get it done quickly. Although this equipment 
is not our most modern, we will modernize this ABCT and replenish the 
equipment set capabilities in the future. The Army will be challenged 
to do so if we do not receive consistent, long-term, balanced, and 
predictable funding.
                                 ______
                                 
                   QUESTION SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. How could operational forces in theater better 
leverage high speed communications equipment like Link 16 for command 
and control and situational awareness to allow them to reduce decision 
to execution timelines and substantially reduce the risk of fratricide?
    General Anderson. Link 16 is the standard used by operational 
forces in the CENTCOM area of operations for situational awareness 
(SA), as well as command and control (C2) between military aircraft and 
ground forces. The US Air Forces Central Command, Combined Air 
Operations Center, accesses US and coalition ground information and 
disseminates relevant threat and friendly/neutral force information to 
aircraft using the Link 16 network. This approach is accepted as the 
model for conventional coalition operations, and is being adopted to 
support NATO operations through development of STANAG 5528. To improve 
our use of systems like Link 16, Army Soldiers and Joint forces should 
be thoroughly trained to fully understand and maximize the capabilities 
of these systems. Detailed mission planning, standardized procedures 
for supporting immediate air requests, realistic training/mission 
rehearsal, use of friendly tagging or tracking devices, effective staff 
coordination, and sound clearance of fires procedures can significantly 
improve C2 and reduce the likelihood of fratricide. In addition, 
USSOCOM has developed a new way to leverage Link 16 called the ``Move 
Out Jump Off'' (MOJO) kit. The kit enables their organic joint terminal 
attack controller (JTAC) to use Link 16 or the Situational Awareness 
Data Link (SADL) to share ground information with supporting close air 
support (CAS) aircraft and rapidly talk them onto target. This 
capability expedites the target acquisition process and provides SA 
information to CAS aircraft well before they establish voice 
communications with the terminal attack controller. The Army will 
continue to review and explore all options for better use and 
integration of high speed capabilities.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. Earlier this year, General Allyn told us that we are 
``outranged, outgunned, and outdated'' in terms of our equipment. Can 
you discuss how the Stryker lethality upgrades will aid U.S. Army 
Europe in theater and remedy these shortcomings?
    General Murray and General Anderson. The Stryker lethality upgrades 
were initiated in response to a theater request and will provide the 
2nd Cavalry Regiment with 83 Stryker vehicles equipped with an unmanned 
30 millimeter (mm) turret. Currently, Infantry battalions in the 
Stryker Brigade are only equipped with heavy machine guns and automatic 
grenade launchers. The 30mm turret substantially increases firepower, 
allowing the unit a greater capability to suppress/destroy light 
armored vehicles and prepared positions in support of infantry 
operations. Ammunition development will eventually bring an airburst 
capability to the 30mm cartridge, providing increased counter-defilade 
capability. The lethality effort will also equip 81 vehicles with the 
capability to fire the Javelin missile under armor by using a remote 
weapons station.
    Mr. Langevin. Can you please discuss how the $3.4 billion for the 
European Reassurance Initiative (ERI) is being spent, how it has 
impacted our NATO partners, what specific challenges the Army has faced 
thus far, and what advances are yet to be made?
    General Murray and General Anderson. ERI funding is used for 
increased military presence in Europe, exercises, training with Allies 
and partners, expansion of Army Prepositioned Stocks, and improved 
infrastructure to provide greater responsiveness. Currently, the Army 
is conducting heel-to-toe rotations of an Armored Brigade Combat Team 
(ABCT) and through increased exercise participation is building NATO 
interoperability and assuring Allies of the United States commitment to 
the Alliance. Elements of the 3rd ABCT, 4th ID, and a combat aviation 
brigade are conducting bilateral training and exercises in the Baltic 
States, Poland, Hungary, Bulgaria, and Romania to improve partner 
capability and assure Allies. ERI contributes to a persistent presence 
in the Black Sea region by investing in the training and mission 
command capabilities at Novo Selo Training Area in Bulgaria and the 
Mihail Kogalniceanu Air Base in Romania. ERI is funding the continued 
expansion of Army equipment sets for Prepositioned Stocks at sites in 
the Netherlands, Belgium, and Germany, which will contain a division 
headquarters, two ABCTs, a fires brigade, a sustainment brigade, and 
other capabilities. Encouraged by our efforts, NATO initiated its own 
deterrence effort with the Enhanced Forward Presence Battle Groups. 
Collectively, these initiatives improve the confidence of our partners 
by demonstrating United States military intent to compete against 
Russia's malign influence and indirect action in the region. Our 
experience has identified areas for improvement including rail 
operations in Europe. In addition, we have identified shortfalls in 
capability, such as United States heavy equipment transport systems not 
meeting EU axle weight standards, which are currently being met with 
support from the British Army. Finally, we have identified sustainment 
capability limitations due to the wide dispersion of the deployed ABCT 
from Estonia to Bulgaria. The key Army challenge in the near future is 
freedom of movement across borders, where numerous legacy barriers 
exist from the Cold War era. United States Army Europe is working a 
longer term NATO agreement similar to the European Union Shengen 
agreement, which allows freedom of movement within NATO countries to 
ease transit and speed of assembly for rapidly deploying allied 
military formations.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BACON
    Mr. Bacon. In your statement, you observed that the Army's 
Strategic Portfolio Review (SPAR) identified electronic warfare as a 
critical capability gap and a modernization priority. What steps has 
the Army taken to date to ensure its forces can operate in a contested 
electromagnetic environment? What specific Army modernization programs 
and initiatives do you believe are vital to ensure electromagnetic 
protection and dominance for the Army's combined arms team?
    General Murray. The Army must dramatically improve our current 
Electronic Warfare (EW) capabilities to counter the effect of 
disruptive technologies on our forces, challenging us across the 
electromagnetic spectrum. In addition to our efforts to provide a 
trusted navigational capability under our Assured Positioning, 
Navigation and Timing program, the Army is pursuing Communications 
Security modernization of legacy and new radio equipment to deny threat 
detection, disruption and exploitation. Science and Technology efforts 
are also underway to pursue new waveforms that will make it 
increasingly difficult for adversaries to detect and disrupt critical 
communications. The Army is fielding the EW Planning and Management 
Tool (EWPMT), which synchronizes electronic warfare planning and 
management of the electromagnetic spectrum. The EWPMT Capability Drop 3 
system will also provide commanders the ability to operate in a 
disconnected, intermittent and limited environment to ensure they can 
continue to operate in a contested electromagnetic environment. 
Further, one of the Army's top priorities is the development of Multi-
Function Electronic Warfare Systems that will provide organic 
Electronic Attack and Electronic Warfare Support capability with the 
specific intent to dominate the electromagnetic spectrum in a time and 
place of the commander's choosing. The capability will deliver scalable 
EW effects in support of Unified Land Operations.
    Mr. Bacon. What additional investments in Army EW range 
infrastructure, simulators etc are required to ensure the Army is 
prepared to operate in a contested electromagnetic environment?
    General Murray. Currently, the Army invests in Electronic Warfare 
(EW) infrastructure test range capabilities such as Electronic 
Countermeasures Compatibility Test Infrastructure and Operations 
platform. Specific testing suites include the Army Cellular 
Communication Network which enables EW technique effectiveness and 
compatibility analysis. Beginning in Fiscal Year 2018, the Army plans 
to invest in home station closed looped training devices (i.e. jamming 
simulators) which will allow the Army to train and evaluate the 
performance of electromagnetic spectrum-dependent systems. Additional 
efforts are also underway to permanently equip National Training Center 
Opposition Force with open air jammers.
    Mr. Bacon. Over the last decade Army maneuver units have become 
increasingly reliant on airborne ISR capabilities--both manned and 
unmanned--that operate in permissive environments. What are the Army's 
modernization priorities to ensure effective ISR for Army maneuver 
forces in a contested operating environment?
    General Murray. To counter the effect of disruptive technologies on 
our forces the Army plans to modernize the aerial manned and unmanned 
Intelligence, Surveillance and Reconnaissance (ISR) fleets to provide 
long-range sensors capable of collecting specific signatures at 
increased distances. For tactical commanders, the Army plans to 
modernize the ground-based Prophet system to enhance collection 
capability across advanced signal sets. The Army will continue to 
leverage the Tactical Exploitation of National Capabilities program to 
partner with national intelligence agencies, enabling the secure 
delivery of national collection and commercial imagery to tactical 
commanders. Further, the Army is developing the requirements to provide 
technologically advanced, expeditionary, and survivable ISR/Electronic 
Warfare/Cyber capabilities at the tactical level to enable lethality 
and provide commander's with overmatch against peer competitors.
    Mr. Bacon. Does the Army's combat training enterprise have the 
ability to simulate a contested electromagnetic environment and to 
train and evaluate unit, staff and weapon system readiness in 
electronic warfare?
    General Anderson. Our ability to create a contested operating 
environment to train Army units is limited, but the Army continues 
moving towards normalizing unit level training in a contested 
electromagnetic operating environment. In August 2016, during National 
Training Center (NTC) Rotation 16-08, the Opposing Force was provided 
representative electronic warfare support (electromagnetic spectrum 
[EMS] sensing) and electronic attack equipment, in order to create a 
contested environment targeting rotational unit's wireless (Mission 
Command Networks) capabilities. This effort will be continued for 
future NTC rotations under ``Cyberspace Electromagnetic Activities 
(CEMA) Optimization''. We will continue to look for ways to increase 
use of live, virtual, and constructive training capabilities to better 
represent contested electromagnetic environments to prepare our 
Soldiers for anticipated threat area environments. Current efforts to 
increase this training are twofold, one for home station training and 
the other for Combat Training Centers. Beginning in fiscal year 2018, 
the Army plans to invest in home station closed looped training devices 
which will allow the Army to evaluate the performance of EMS dependent 
systems/networks for future operating environments.
    Mr. Bacon. How is the Army currently addressing the non-materiel 
force development aspects of electronic warfare such as concepts, 
doctrine, training, exercises, wargames etc.?
    General Anderson. This month the Army released Field Manual 3-12 
(Cyberspace and Electronic Warfare Operations). It updates guidance and 
directions for conducting cyberspace and electronic warfare operations 
using Cyberspace Electromagnetic Activities (CEMA) for unified land 
operations. We are transforming our Electronic Warfare (EW) workforce 
(Military Occupation Specialty, FA29) by integrating personnel into the 
Army Cyber Corps (Cyber Electromagnetic Operations Officer, FA17), and 
we are working with the U.S. Navy to leverage their EW courses in order 
to bridge training requirements as we evolve the Army's EW training 
model. We are also developing new policies and strategies to address 
how the Army develops and enhances operations in a contested 
electromagnetic spectrum; it nests these documents with the 2017 
Department of Defense EW Strategy. We expect the Department of the Army 
to publish the new EW Strategy for 2025 that will aid in synchronizing 
material and non-material solutions across the Army domains of 
doctrine, organization, training, materiel, leadership and education, 
personnel, and facilities. Our policy and strategy changes enable the 
paradigm shift to CEMA, including spectrum management as well as roles 
in multi-domain warfare. We continue working closely with the Joint 
Staff and other Services. For example, we meet semi-annually with our 
U.S. Marine Corps counterparts, exchanging future electronic warfare 
information and development (i.e., electronic attack), exercise, and 
wargaming support issues. Additionally, we are also a member of the 
Secretary of Defense's EW Executive Committee, which is chartered to 
develop new capabilities and modify existing non-materiel conditions to 
make the Department economically efficient and to improve overall 
combat effectiveness.
    Mr. Bacon. Have you engaged with the Air Force or the Joint Staff 
to develop new joint operating concepts to ensure effective ISR for 
unified land operations against a near-peer competitor? If yes, how 
have these concepts been exercised and evaluated and what is needed to 
bring them into the force?
    General Anderson. The Army engaged with the Air Force and the Joint 
Staff to develop joint operating concepts to ensure effective ISR for 
unified land operations against a near-peer competitor. Past efforts 
include the Joint Concept for Electromagnetic Spectrum Operations 
(JCEMSO), Joint Operational Access Concept (JOAC), Joint Concept for 
Rapid Aggregation (JCRA) and Joint Concept for Entry Operations (JCEO). 
The Joint Concept for Electromagnetic Spectrum Operations (JCEMSO) 
states that, to endure in the future operational environment, the Joint 
Force must first focus on achieving electromagnetic spectrum (EMS) 
superiority, which includes ISR. EMS superiority is the critical 
enabler across many domains and will be essential against near-peer 
competitors. Similarly, the Joint Operational Access Concept (JOAC) 
addresses ISR within the context of how joint forces will operate in 
response to emerging anti-access and area-denial security challenges 
from near-peer competitors. The JOAC emphasizes the importance of ISR 
requirements as a means to understanding near-peer intentions, the need 
to apply information in an effective manner, and the need to locate and 
understand enemy A2/AD capabilities. The Joint Concept for Rapid 
Aggregation (JCRA) describes actions necessary for the Joint Force to 
improve its ability to aggregate forces rapidly at the outset of 
crisis. For example, a Joint Force that is located forward in the 
operational area may aggregate through the establishment of a command 
relationship with supporting capabilities, such as ISR, space, and 
cyberspace, which are far from the controlling headquarters. The Joint 
Concept for Entry Operations (JCEO) describes in broad terms how joint 
forces will enter foreign territory and immediately employ capabilities 
to accomplish assigned missions. This includes conducting entry in the 
presence of armed opposition characterized by increasingly advanced 
area denial systems, as well as entry where the environment and 
infrastructure may be degraded or austere. This concept emphasizes the 
critical importance of synchronized ISR to set the conditions for 
forced entry operations. Two recently begun threat based Joint Concepts 
will discuss and assess effective ISR for unified land operations 
against near-peer competitors. The new Joint Concepts are the Joint 
Operating Concept--Russia (JOC-R) and the Joint Operating Concept--
China (JOC-C). In addition, the Army Multi-Domain Battle (MDB) concept, 
which discusses the importance of ISR for unified land operations 
against a near-peer competitor, is currently being developed with 
substantial input and coordination with all of the other services and 
Joint Staff. This concept envisions a future in which peer rivals will 
attempt to disrupt our ISR capabilities in the opening days of a 
conflict. Finally, the Army and Air Force conduct Warfighter Talks 
every six months to discuss joint concepts, among other topics, and the 
Army, Air Force, Navy, and Marines routinely discuss the Joint 
Processing, Exploitation, and Dissemination (PED) of service ISR 
assets. As with any Joint Concept, the concept is approved by the Joint 
Staff, but the implementation of any of the recommended required 
capabilities is determined by each service chief. Each service must 
assess the required capability and decide on further evaluation, 
exercising, priority, and funding. Each service chief determines if and 
when a capability is brought into the force.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
